REVIEW OF NRC’S SEPARATION-CLEARANCE
      PROCESS FOR EXITING STAFF
          AND CONTRACTORS

        OIG/99A-06 July 20, 1999
                                         July 20, 1999




MEMORANDUM TO:               William D. Travers
                             Executive Director for Operations


                             Stewart T. Reiter
                             Acting Chief Information Officer


FROM:                        Thomas J. Barchi
                             Assistant Inspector General for Audits


SUBJECT:                     REVIEW OF NRC’S SEPARATION-CLEARANCE PROCESS
                             FOR EXITING STAFF AND CONTRACTORS


Attached is the Office of the Inspector General’s (OIG) audit report titled ”Review of NRC’s
Separation-Clearance Process for Exiting Staff and Contractors.” This review was initiated after
OIG learned of several cases where local area network accounts had not been deleted for former
employees and contractors of the agency.

On June 2, 1999, we provided a draft of this report to the Executive Director for Operations and
the Chief Information Officer. On July 9, 1999, the Deputy Executive Director for Management
Services responded to our draft report and agreed with the report’s recommendations.

Please contact me on 415-5915 if we can assist you further in this matter.


Attachment: As stated
                       Review of NRC’s Separation-Clearance Process for Exiting Staff and Contractors



REPORT SYNOPSIS

        The Office of the Inspector General initiated a review of the U.S. Nuclear
        Regulatory Commission’s (NRC) separation-clearance process after learning of
        several cases where local area network (LAN) accounts for former employees and
        contractors had not been deleted. Moreover, we identified one former employee
        who could still access an NRC LAN account and the files of the employee’s former
        office. The agency’s separation-clearance process contains a step intended to
        trigger the termination of LAN accounts for employees who separate from the
        agency. However, we were concerned that the step was not achieving its intended
        purpose and about the risks involved in unintentionally allowing former
        employees/contractors to have access to sensitive, non-public agency information.
        We were also concerned that other steps in the process might not be achieving
        their intended purposes. Our objectives for the audit were to determine (1) whether
        the agency was terminating employee/contractor access to the LAN in a timely
        manner after those individuals ended their employment with NRC, and (2) whether
        other steps in the separation-clearance process were being fulfilled as intended.

        In general, NRC’s separation-clearance process appears to be working to prevent
        employees from terminating their employment without repaying debts owed to
        NRC. However, the process has failed to ensure the consistent, timely termination
        of LAN accounts when employees and contractors stop working for NRC. In
        addition, the process is duplicative in parts, some clearing officials do not carry out
        the process as NRC managers expect them to or as guidance prescribes, and
        agency guidance on the topic is sometimes conflicting.

        We found that the separation-clearance process does not directly trigger
        termination of LAN accounts at headquarters. We also noted an absence of clear
        guidance on the separation-clearance process in general, and the LAN-related
        steps in particular. We believe the manner in which the separation-clearance
        process is carried out and the lack of clear guidance contribute to the failure to
        delete LAN accounts in a timely manner. We also believe that the other problems
        we identified with regard to the separation-clearance process result from (1) no
        single office taking responsibility for guiding the process and ensuring maximum
        efficiency, and (2) a lack of specific written guidance.

        Our report makes four recommendations to improve the agency’s separation-
        clearance process and ensure that it remains current with agency operations.




        OIG/99A-06                                                                             Page i
                             Review of NRC’s Separation-Clearance Process for Exiting Staff and Contractors



TABLE OF CONTENTS


        REPORT SYNOPSIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

        INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

                    BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

        FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

                    LAN ACCOUNTS NOT CONSISTENTLY TERMINATED FOR SEPARATING
                          EMPLOYEES AND CONTRACTORS . . . . . . . . . . . . . . . . . . . . . . . . . 2

                    SEPARATION-CLEARANCE PROCESS REFLECTS THAT NO ONE OFFICE
                          HAS TAKEN CHARGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

        CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

        RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

        OIG COMMENTS ON AGENCY RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . 8


        APPENDICES

                 I            OBJECTIVES, SCOPE, AND METHODOLOGY

                II            NRC FORM 270, “SEPARATION CLEARANCE”

                III           AGENCY RESPONSE TO DRAFT REPORT

               IV             NRC ORGANIZATIONAL CHART

                V             MAJOR CONTRIBUTORS TO THIS REPORT

           VI    GLOSSARY:                          OFFICE         OF      THE       INSPECTOR              GENERAL
        PRODUCTS




        OIG/99A-06
                       Review of NRC’s Separation-Clearance Process for Exiting Staff and Contractors



INTRODUCTION

         The Office of the Inspector General initiated a review of the U.S. Nuclear
         Regulatory Commission’s (NRC) separation-clearance process after learning of
         several cases where local area network (LAN) accounts had not been deleted for
         former employees and contractors of the agency. Moreover, we identified one
         former employee who could still access an NRC LAN account and the files of the
         employee’s former office. The agency’s separation-clearance process contains a
         step intended to trigger the termination of LAN accounts for employees who
         separate from the agency. However, we were concerned that the step was not
         achieving its purpose. We were also concerned about the risks involved in
         unintentionally allowing former employees/contractors to have access to sensitive,
         non-public agency information.

         Furthermore, we learned that the separation-clearance process is not addressed
         in NRC’s Management Directives or comprehensively in any other agency
         guidance. Given this lack of instruction on the process, and the presence of LAN
         accounts for former employees and contractors, we became concerned as to
         whether other steps in the process were being fulfilled as intended.

         Our objectives for this audit were to determine (1) whether the agency was
         terminating employee/contractor access to the LAN in a timely manner after those
         individuals ended their employment with NRC, and (2) whether other steps in
         NRC’s separation-clearance process were being fulfilled as intended. Appendix
         I contains additional information on our objectives, scope, and methodology.

    BACKGROUND

         In preparing to terminate their NRC employment, staff members must obtain a
         number of clearances before they receive their final salary payments. The
         organizational units that clear separating employees and the items to be cleared
         are specified on NRC Form 270, “Separation Clearance” (see Appendix II).

         Currently, there is no Management Directive addressing the separation-clearance
         process. A manual chapter addressing the topic was abolished in August 1994
         because responsible managers felt that the manual chapter merely repeated
         information already included on Form 270, and that the form could stand alone.
         The Office of Human Resources (HR) now provides separating employees with an
         instruction sheet to help guide them through the separation-clearance process.
         The instruction sheet lists the organizational units responsible for clearing


         OIG/99A-06                                                                            Page 1
Review of NRC’s Separation-Clearance Process for Exiting Staff and Contractors



                 employees at each step of the process as well as the name, location, and
                 telephone extension for the clearing official. Generally, in carrying out the process,
                 the employee’s home office handles the initial clearance steps on the form and
                 then the separating employee hand carries the form to clearing officials
                 representing each of the remaining steps on the form to obtain their clearance
                 signatures. Form 270 was most recently updated in December 1998.

                 Contractors do not follow the same separation-clearance process as NRC
                 employees, but NRC requires that their badges be returned and their LAN access
                 terminated when they stop working for the agency.

FINDINGS

                 In general, NRC’s separation-clearance process appears to be working to prevent
                 employees from terminating their employment without repaying debts owed to
                 NRC. However, the process has failed to ensure the consistent, timely termination
                 of LAN accounts when employees and contractors stop working for NRC. In
                 addition, the process is duplicative in parts, some clearing officials do not carry out
                 the process as NRC managers expect them to or as guidance prescribes, and
                 agency guidance on the topic is sometimes conflicting. In this section, we will
                 discuss our findings (1) regarding the termination of employee and contractor LAN
                 accounts upon separation from the agency and (2) concerning the process in
                 general.

        LAN ACCOUNTS NOT CONSISTENTLY TERMINATED FOR SEPARATING EMPLOYEES AND
        CONTRACTORS

                 LAN accounts are not always terminated in a timely manner after NRC staff and
                 contractors end their employment with the agency. Furthermore, agency guidance
                 on the separation-clearance process is unclear and key players in the process do
                 not always carry out the process as intended. Failure to terminate LAN accounts
                 in a timely manner creates a threat to sensitive information stored on the LAN and
                 a scenario where abuse could occur. This is particularly important, given the
                 pending implementation of the Agencywide Documents Access and Management
                 System (ADAMS) as the agency’s electronic recordkeeping system.

                 According to an NRC Management Directive,(1) LAN user identifications (ID’s) must
                 be invalidated (removed from the automated information system) for various


        1
                 Guidance on termination of LAN access appears in Handbook 12.5, NRC Management
                 Directive Volume 12, Security.

                 OIG/99A-06                                                                       Page 2
                   Review of NRC’s Separation-Clearance Process for Exiting Staff and Contractors



    reasons, including termination of employment or contract. While the agency does
    not prescribe a time by which removal should occur, it seems logical that
    termination of electronic access to the agency’s files should be treated in a manner
    similar to termination of physical access to agency facilities when an employee or
    contractor stops working for NRC. Interestingly, another Management Directive,(2)
    which addresses physical access to NRC facilities, does not prescribe a specific
    time frame for termination of access authorization when an NRC staff member
    leaves the agency. Nevertheless, in practice, and as reflected on NRC Form 270,
    “Separation Clearance,” employee key card badges, which are required for access
    to NRC facilities, must be submitted before an employee can be cleared to receive
    his or her last paycheck. Badge return typically occurs on the employee’s last day
    of work at NRC.

    While termination of an employee’s LAN access on his or her last day of work
    would seem to be a reasonable goal, this is not the general practice at NRC. At
    headquarters, the separation-clearance process does not directly trigger
    termination of LAN accounts. Office of the Chief Information Officer (OCIO)
    managers say that they expect, and depend on, office LAN Managers and
    Information Technology (IT) Coordinators to inform them when an employee or
    contractor is leaving so that they can terminate the account. While the separation-
    clearance form requires the employing office to notify its “LAN Manager” at the start
    of the separation-clearance process for each separating employee, there is no
    signoff to indicate that this individual has notified OCIO of the pending separation.
    According to OCIO managers, upon such notification, the terminated employee’s
    account would be deleted, ideally, within a day. However, they said, such
    notification does not always occur, particularly with regard to contractors.
    Therefore, as a backup, OCIO managers responsible for the LAN periodically
    receive a list of employees and contractors who have stopped working for the
    agency and who have turned in their badges to the Division of Facilities and
    Security (DFS). Due to the periodicity with which OCIO has received this list, they
    acknowledged the possibility of lag times with regard to deletion of LAN accounts.(3)

    In an effort to assess whether a significant number of former employees still


2
    Guidance on termination of physical access to NRC facilities appears in Handbook 12.3,
    NRC Management Directive Volume 12, Security.
3
    During the course of OIG’s audit, an OCIO manager reported that OCIO had streamlined
    the process by which it received HR’s “loss list” of employees who have separated from
    NRC during the week and is using it each week as a basis for removing employee
    names from the LAN. OCIO also reported having plans to receive, on a regular basis,
    the DFS list of employees and contractors who have turned in their badges due to
    separation. According to the OCIO manager, the lists will be given to the Network
    Control Center (NCC) and NCC staff will be required to delete LAN accounts for these
    individuals within 2 working days.

    OIG/99A-06                                                                             Page 3
Review of NRC’s Separation-Clearance Process for Exiting Staff and Contractors



                 appeared to have LAN accounts after termination of employment, we searched in
                 the GroupWise address book for the names of employees who separated from
                 NRC during fiscal year 1998. Of 231 employees who separated from the agency
                 during that time frame, 32 (14 percent) still had e-mail addresses on NRC’s LAN
                 at headquarters. In addition, we sent test messages to half of these individuals
                 and received indication from GroupWise that all had been delivered. Furthermore,
                 at least one of these individuals still had access to an NRC LAN account and could
                 retrieve e-mail and open files maintained by the employee’s former office.

                 According to OCIO managers, the appearance of former employees’ names on the
                 LAN does not necessarily indicate an active LAN account. They said that
                 sometimes former employee names and user ID’s remain on the list because of
                 special requests made by offices to disable, rather than delete, the accounts of
                 former employees. In such cases, the former employee’s name is kept on the LAN,
                 but his or her password is changed. As a result, the person’s network access is
                 terminated. The OCIO managers said that, in some cases, there may be a failure
                 to ultimately delete these accounts, resulting in the appearance of former employee
                 names in the address book.

                 In comparison to the process at headquarters, the regional offices we contacted
                 for this review described strategies that more closely linked a step on the Form 270
                 to the actual deletion of LAN accounts. Reportedly, in these regions, a clearing
                 official’s signature on the separation-clearance form indicates that this person will
                 immediately contact the region’s LAN Administrator to request either disabling or
                 termination of the LAN account. According to those interviewed, disabling and
                 termination (in some cases) of accounts typically occurs within 1 working day of the
                 employee’s last day at work.

                 There is an absence of clear guidance on the separation-clearance process in
                 general, and the LAN-related steps in particular. We believe this void contributes
                 to the failure to delete LAN accounts consistently in a timely manner. First, as
                 mentioned earlier, there is no single management directive addressing the
                 separation-clearance process overall and the purpose of each step in the process.
                 While employees are expected to go through the separation-clearance process
                 prior to termination, there is no similar process for contractors. While OCIO staff
                 expect office LAN Managers/IT Coordinators to notify them when a contractor stops
                 working for the agency, the current “guidance” on the subject is contained in
                 contract language and does not support this expectation. This contract language
                 requires only that DFS be notified when a contractor no longer requires access to
                 NRC sensitive automated information systems and data. While the contract
                 language does not specify who should notify DFS, we were told it is typically the
                 project officer who provides this notification.

                 Second, the existing guidance on termination of LAN accounts neither prescribes
                 a time frame or process for achieving termination of LAN accounts nor explains

                 OIG/99A-06                                                                     Page 4
                     Review of NRC’s Separation-Clearance Process for Exiting Staff and Contractors



      either of the two LAN-related steps on the separation-clearance form. While one
      step on the form, “ADP Equipment and Software/AUTOS Password Cancelled,”
      suggests it might be a trigger point for cancellation of LAN accounts, the step is not
      used for that purpose. It should be noted that the regions we contacted for this
      review had modified the Form 270 in such a manner to more clearly identify a LAN
      account termination step on the form. Additionally, the staff people considered by
      OCIO to be responsible for informing OCIO about LAN account termination
      requests have not received clear or consistent guidance on this expectation.

      A third area of concern related to guidance is that the instruction sheet prepared
      by HR to complement Form 270 is inconsistent with information provided on the
      form itself. For example, Form 270 states that the clearing unit for step 8 of the
      process (“ADP Equipment and Software/AUTOS Password Cancelled”) is the
      “Office IT Coordinator,” while the HR instruction sheet states it is the “Office
      Automation & Network Development/CIO.” Adding to the confusion is that Form
      270 implies that the clearing official for step 8 is the “Office IT Coordinator,”
      whereas the HR instruction sheet states that the clearing official is the “Home
      Office Custodian.”

      Failure to terminate LAN accounts of former employees and contractors in a timely
      manner creates an unnecessary risk to the agency’s sensitive information stored
      on the network. The risk will be potentially magnified further when ADAMS is
      implemented as the agency’s electronic recordkeeping system. Furthermore,
      leaving the names of former employees on the LAN, even if the accounts have
      been “disabled,” creates a false impression that a message sent to that individual
      will be received.

SEPARATION-CLEARANCE PROCESS REFLECTS THAT NO ONE OFFICE HAS TAKEN CHARGE

      In addition to reviewing the specific portion of the separation-clearance process
      pertaining to termination of LAN access, we reviewed the overall clearance process
      to determine whether there were other areas of concern. We found that agency
      guidance on the process is unclear and there has been no single office that has
      taken responsibility for the overall process. As a result, we believe the process
      takes longer than necessary, is not always carried out as intended, and creates the
      potential for NRC to miss opportunities for collecting debts and removing
      employees from access lists.

      As reflected on Form 270, and as stated in an abolished manual chapter on the
      subject, the purpose of the separation-clearance process is “to assure that persons
      separating from employment or being reassigned obtain the necessary clearances
      before they receive their final salary payments.” While there is no agency
      guidance setting a standard for how the process is to be carried out, it seems
      appropriate that NRC’s separation-clearance process should be purposeful,
      efficient, non-duplicative, consistent, and in line with present-day needs.

      OIG/99A-06                                                                             Page 5
Review of NRC’s Separation-Clearance Process for Exiting Staff and Contractors




                 While we found that the separation-clearance forms are completed in most cases
                 for separating employees, clearing officials know what they are supposed to do in
                 order to sign off, and the agency is not having problems collecting debts owed to
                 it by former employees -- the process could be improved. In addition to the issues
                 we described relating to the termination of LAN accounts, we identified two steps
                 concerning property on the separation-clearance form that could be consolidated
                 into one. We noted two steps that are worded inaccurately, reflecting directions
                 that may have been appropriate in the past, but which are no longer applicable.
                 We also found cases where regional staff are submitting forms that are no longer
                 required by headquarters as part of the clearance process. Further, we observed
                 a lack of specific written instructions for clearing officials describing the steps
                 required to clear employees.

                 Moreover, we identified inconsistencies between instructions on the form and the
                 way the process is carried out. For example, while Form 270 directs regional staff
                 separating from employment to obtain local regional office clearances for all
                 applicable items except three specific fiscal matters, this is not the way the regional
                 forms are handled. Additionally, Form 270 asks regional offices to telefax a copy
                 of a separating employee’s separation-clearance form to the Payroll Office in
                 headquarters when the employee begins the clearance process. In many cases,
                 this is not occurring. While we did not identify any negative consequences that
                 resulted from this discrepancy, it causes one to question the value of the guidance.

                 We also noted discrepancies between the form and the instruction sheet provided
                 by HR to help guide employees through the separation-clearance process. While
                 Form 270 instructs headquarters employees, after their exit interview with HR, to
                 “hand carry this form to the Payroll Operations Section, OC,”(4) the HR instruction
                 sheet contains a prominent note to employees to “leave your NRC Form 270 with
                 the Human Resources Specialist after your debriefing.” Perhaps the most notable
                 error on the Form 270 itself is its reference to a non-existent NRC Management
                 Directive 10.8, presumably for guidance on the separation-clearance process.

                 Our review also raised questions as to whether the current clearance process
                 ensures account termination as appropriate in all agency automated information
                 systems. For example, we noted several cases where the names of former
                 employees remained in an office time and attendance (T&A) group on the
                 PAY/PERS system, potentially creating a false impression that the employees still
                 were in that T&A group.

                 We also found that while there is a paperwork process to clear NRC employees,
                 there is no similar process for contractors who stop working for the agency. NRC


        4
                 As part of NRC’s reorganization of January 5, 1997, the Office of the Controller (OC)
                 was incorporated into the newly created Office of the Chief Financial Officer.

                 OIG/99A-06                                                                         Page 6
                      Review of NRC’s Separation-Clearance Process for Exiting Staff and Contractors



        has over the past several years made efforts to tighten the controls over contractor
        access to the agency. At present, contract project officers are expected to notify
        DFS when a contractor stops working for the agency. Yet, it was reported to us
        that project officers do not consistently carry out this duty.

        Finally, on a positive note, we observed that three of the regional offices have
        modified the separation-clearance form to suit their specific needs. For example,
        regions have added steps for such items as conflict-of-interest debriefings, removal
        from site access lists, issuance of radiation dosimetry, and exit interviews with the
        regional administrator.

        We believe that the problems identified regarding the separation-clearance process
        result from (1) no single office taking responsibility for guiding the process and
        ensuring maximum efficiency, and (2) a lack of specific written guidance on the
        subject. According to one HR manager, the separation-clearance form just seems
        to have evolved over time, based on input from the offices responsible for steps in
        the clearance process. However, HR does coordinate the process by which
        changes, additions, or deletions are made to the form.

        Taken separately, each of the problems we identified may seem inconsequential;
        yet, as a whole, they reflect a process that is not being closely monitored and
        which could result in problems for the agency at a future date.

CONCLUSION

        Although NRC’s separation-clearance process appears to be working in a general
        sense to prevent employees from terminating their employment without repaying
        debts owed to NRC, the process is not resulting in the consistent termination of
        LAN accounts for employees and contractors who stop working for the agency.
        The process also suffers from a lack of clear guidance and no single office taking
        charge of it to ensure that it fits current agency needs. An inefficient and outdated
        process could result in threats to sensitive agency information and to loss of money
        for the agency.

RECOMMENDATIONS

        To improve the efficiency of the agency’s separation-clearance process, we
        recommend that the Executive Director for Operations (EDO):

        1)      Revise the current Form 270 to eliminate duplication and include any new
                steps that would be appropriate for inclusion in the process, including
                termination of access to all automated information systems. This revision
                should incorporate a more direct link between termination of LAN accounts
                and the 270 process. The EDO should also examine all instructions on the

        OIG/99A-06                                                                            Page 7
Review of NRC’s Separation-Clearance Process for Exiting Staff and Contractors



                         form and the accompanying instruction sheet and ensure that each reflects
                         current and accurate information.

                 2)      Develop a Management Directive on the separation-clearance process,
                         detailing the purpose of each step, regional responsibilities, and contractor
                         issues. This guidance should also specify time frames for completion of
                         actions triggered by the form (e.g., termination of LAN accounts).

                 3)      On a regular basis, review the Form 270 to ensure it is current and
                         consistent with agency operations.

                 4)      Consider placing primary responsibility and accountability for obtaining
                         necessary clearances on a designated entity (e.g., home office, HR) other
                         than the separating employee. In addition, look for ways to automate the
                         clearance process.

OIG COMMENTS ON AGENCY RESPONSE

                 On July 9, 1999, the Deputy Executive Director for Management Services (DEDM)
                 responded to our draft report. The DEDM agreed with our four recommendations
                 and presented the corrective actions planned to address our concerns and time
                 frames for the completion or initiation of these measures.

                 The response also included a comment attributed to the Chief Information Officer
                 (CIO) pertaining to recommendation 1. While the CIO concurred with the
                 recommendation, he stated that “methods used by OIG to quantify the problem
                 may be inaccurate.” We take strong exception to the CIO’s comment. As we
                 stated in our report, we found that 14 percent of the employees who separated
                 from NRC during FY 1998 still had e-mail addresses on NRC’s LAN at
                 headquarters. We sent test messages to half of these individuals and received
                 indication that all had been “delivered.” Despite these findings, we did not
                 characterize these accounts as active or say that former employees could access
                 them. However, we identified one former employee who still had access to an
                 NRC LAN account and could retrieve e-mail and open files maintained by the
                 employee’s former office. This proves that NRC needs to take greater measures
                 to protect its information from the threat of unauthorized access and tampering.
                 Furthermore, we presented this quantifiable information to the CIO at the audit
                 entrance conference. Neither at that time nor during the entire course of the audit
                 did the CIO or his staff question or disagree with our methods for “quantifying the
                 problem.” Furthermore, we reiterated this information at the audit exit conference
                 and, again, no one raised any objections to our methodology. Therefore, we
                 continue to believe our methodology for quantifying this problem was both
                 appropriate and accurate.

                 Finally, the CIO concludes his comment by saying that “under many circumstances”
                 it is a “prudent course of action” to preserve former employee accounts and their

                 OIG/99A-06                                                                     Page 8
              Review of NRC’s Separation-Clearance Process for Exiting Staff and Contractors



functions while changing the account passwords. We understand that it may
sometimes be necessary to preserve such accounts, and that changing the
account password is a method for preventing the former employee from accessing
the account. However, we caution against OCIO’s practice of leaving the names
of former employees on the LAN. Even if the individual no longer has access, the
appearance of a former employee’s name on the address list can provide people
who send messages to this address with the mistaken impression that the
message was “delivered” to the former employee. If OCIO makes the effort to
change the password to access the account, we believe they could also change
the name on the account to more accurately reflect the recipient of messages sent
to that e-mail address, and thereby prevent the dissemination of erroneous
information.




OIG/99A-06                                                                            Page 9
                                                                                         Appendix I
                      Review of NRC’s Separation-Clearance Process for Exiting Staff and Contractors




OBJECTIVES, SCOPE, AND METHODOLOGY

        The objectives of our audit were to 1) determine whether the agency is terminating
        employee/contractor access to the local area network (LAN) in a timely manner
        after those individuals end their employment with U.S. Nuclear Regulatory
        Commission (NRC), and 2) determine whether other steps in NRC’s separation-
        clearance process are being fulfilled as intended.

        To explore these issues, we talked with headquarters clearing officials representing
        each step of the Form 270 clearance process to determine the purpose of the step,
        the strategy for ensuring clearance, and their understanding of the step. We also
        spoke with several clearing officials in Regions I, II, and III and in the Technical
        Training Center in Chattanooga, Tennessee, to learn about their approaches with
        regard to termination of LAN and facility access in particular.

        In addition, we interviewed Office of Human Resources, Office of the Chief
        Information Officer, and Office of the Chief Financial Officer staff to gain more
        information about the separation-clearance process in general, the LAN access
        step, and the methods by which NRC recovers debts from separated employees.

        Our audit was conducted from December 1998 to April 1999 in accordance with
        generally accepted Government auditing standards.




        OIG/99A-06                                                                        Page 1 of 1
                                                                               Appendix II
             Review of NRC’s Separation-Clearance Process for Exiting Staff and Contractors




OIG/99A-06                                                                       Page 1 of 2
Appendix II
Review of NRC’s Separation-Clearance Process for Exiting Staff and Contractors




                 OIG/99A-06                                                      Page 2 of 2
                                                                               Appendix III
             Review of NRC’s Separation-Clearance Process for Exiting Staff and Contractors




OIG/99A-06                                                                       Page 1 of 3
Appendix III
Review of NRC’s Separation-Clearance Process for Exiting Staff and Contractors




                 OIG/99A-06                                                      Page 2 of 3
                                                                               Appendix III
             Review of NRC’s Separation-Clearance Process for Exiting Staff and Contractors




OIG/99A-06                                                                       Page 3 of 3
                                                                                      Appendix IV
                     Review of NRC’s Separation-Clearance Process for Exiting Staff and Contractors



NRC ORGANIZATIONAL CHART




        OIG/99A-06                                                                       Page 1 of 1
                                                                               Appendix V
             Review of NRC’s Separation-Clearance Process for Exiting Staff and Contractors




MAJOR CONTRIBUTORS TO THIS REPORT


Corenthis B. Kelley
Team Leader


Judy G. Gordon
Management Analyst




OIG/99A-06                                                                       Page 1 of 1
                                                                                               Appendix VI
                              Review of NRC’s Separation-Clearance Process for Exiting Staff and Contractors



             GLOSSARY: OFFICE OF THE INSPECTOR GENERAL PRODUCTS

            INVESTIGATIVE
1.   INVESTIGATIVE REPORT - WHITE COVER
     An Investigative Report documents pertinent facts of a case and describes available evidence
     relevant to allegations against individuals, including aspects of an allegation not substantiated.
     Investigative reports do not recommend disciplinary action against individual employees.
     Investigative reports are sensitive documents and contain information subject to the Privacy Act
     restrictions. Reports are given to officials and managers who have a need to know in order to
     properly determine whether administrative action is warranted. The agency is expected to advise
     the OIG within 90 days of receiving the investigative report as to what disciplinary or other action
     has been taken in response to investigative report findings.

2.   EVENT INQUIRY - GREEN COVER
     The Event Inquiry is an investigative product that documents the examination of events or
     agency actions that do not focus specifically on individual misconduct. These reports identify
     institutional weaknesses that led to or allowed a problem to occur. The agency is requested to
     advise the OIG of managerial initiatives taken in response to issues identified in these reports
     but tracking its recommendations is not required.

3.   MANAGEMENT IMPLICATIONS REPORT (MIR) - MEMORANDUM
     MIRs provide a "ROOT CAUSE" analysis sufficient for managers to facilitate correction of
     problems and to avoid similar issues in the future. Agency tracking of recommendations is not
     required.

            AUDIT

4.   AUDIT REPORT - BLUE COVER
     An Audit Report is the documentation of the review, recommendations, and findings resulting
     from an objective assessment of a program, function, or activity. Audits follow a defined
     procedure that allows for agency review and comment on draft audit reports. The audit results
     are also reported in the OIG's "Semiannual Report" to the Congress. Tracking of audit report
     recommendations and agency response is required.

5.   SPECIAL EVALUATION REPORT - BURGUNDY COVER
     A Special Evaluation Report documents the results of short-term, limited assessments. It
     provides an initial, quick response to a question or issue, and data to determine whether an in-
     depth independent audit should be planned. Agency tracking of recommendations is not
     required.

            REGULATORY

6.   REGULATORY COMMENTARY - BROWN COVER
     Regulatory Commentary is the review of existing and proposed legislation, regulations, and
     policies so as to assist the agency in preventing and detecting fraud, waste, and abuse in
     programs and operations. Commentaries cite the IG Act as authority for the review, state the
     specific law, regulation or policy examined, pertinent background information considered and
     identifies OIG concerns, observations, and objections. Significant observations regarding action
     or inaction by the agency are reported in the OIG Semiannual Report to Congress. Each report
     indicates whether a response is required.

               OIG/99A-06                                                                         Page 1 of 1
